( l­
~..
  -",

     :.....no
"~""~4"'VIC~'S'''S.
                           DEPARTMENT
                           DEPARTMENTOF
                                      OFHEALTH
                                        HEALTH&.
                                               &. HUMAN
                                                  HUMAN SERVICES
                                                        SERVICES                                                   Office of Inspector
                                                                                                                   Office    Inspector General



                                                                                                                   Washington, D.C.
                                                                                                                   Washington,
                                                                                                                                       General



                                                                                                                               D.C. 20201

                                                                                                                                    20201




                                                                APR 22 77 2009
                                                                APR       209


                  TO:
                  TO: Charlene  Frizzera
                           Charlene Frizzera
                                         Acting Administrator
                                         Cent  rs for
                                         Cent rs   forMedicare
                                                      Medicare& &Med'
                                                                  Med .. Services
                                                                          Services


                  FROM:
                  FROM: oseph E. E.Vengri
                           oseph    Vengri
                                               ¿;~
                                               ~~
                                         Deputy Inspector General for Audit Services
                                                                            Services


                      SUBJECT:
                  SUBJECT: Review of 
   Review of Medicaid Outpatient Drug Expenditures in California
                                                                                            California for
                                                                                                       for Fiscal Years
                                                                                                                  Years
                                         2004 and 2005 (A-09-07-00039)


                  Attached is an advance copy ofof our final report on Medicaid outpatient drug expenditures in
                  California for
                             for fiscal
                                 fiscal years
                                        years (FY)
                                              (FY) 2004
                                                   2004 and
                                                         and2005.
                                                              2005. We will  issue this
                                                                        wil issue   this report
                                                                                         report to
                                                                                                to the
                                                                                                   the California
                                                                                                       California
                  Department of Health Care Services (the State agency) within 55 business days.days.

                  The Federal and State Governments jointlyjointly fund
                                                                   fund and
                                                                         and administer
                                                                             administer the
                                                                                          the Medicaid
                                                                                               Medicaid program.
                                                                                                         program. Under
                  the Medicaid drug rebate program, the Centers for Medicare &       & Medicaid Services (CMS)(eMS)
                  provides the States with a quarterly    Medicaid drug
                                              quarerly Medicaid      drug tape,
                                                                           tape, which
                                                                                 which lists
                                                                                        lists all
                                                                                              all covered
                                                                                                  covered outpatient
                                                                                                           outpatient drugs,
                                                                                                                      drugs,
                  indicates a drug's termination
                                      termination date
                                                  date ififapplicable,
                                                            applicable, and
                                                                        and specifies
                                                                             specifies whether
                                                                                       whether thethe Food
                                                                                                      Food and
                                                                                                            and Drug
                                                                                                                Drug
                  Administration has
                                   has determined the
                                                    the drug
                                                         drug to
                                                               to be
                                                                  be less
                                                                     less than
                                                                          than effective.  CMS guidance
                                                                                effective. CMS     guidance instructs the
                  States to
                         to use
                            use the tape to verify coverage of of the drugs for which they claim reimbursement.

                  Our objective
                       objective was to
                                      to determine whether the
                                                           the State agency's claims for reimbursement of
                                                                                                        of
                  Medicaid outpatient drug expenditures complied with Federal requirements related to adequacy
                  of support for
                             for the Federal share claimed, and whether the drugs were terminated, included on the
                  CMS quarterly drug tapes, or less than effective.

                  The    State
                  The State       agency's
                            agency's             claims for
                                     claims for reimbursement of 
 reimbursement of Medicaid outpatient drug expenditures for

                  FYs
                  FY s2004 2004and  and20052005did  didnotnotfully
                                                                fullycomply
                                                                      complywith
                                                                              withFederal
                                                                                     Federalrequirements.
                                                                                             requirements. The State agency claimed
                  $24,082,193
                  $24,082,193 (Federal (Federal share)share) for unallowable Medicaid expenditures, which included
                  $21,024,264
                  $21,024,264 in unsupported drug expenditures and $3,057,929 in drug expenditures that were
                  not eligible
                        eligible for for Medicaid
                                           Medicaid coverage
                                                           coverage because
                                                                        because the
                                                                                 the drugs
                                                                                     drugs were
                                                                                           were terminated.
                                                                                                 terminated. In addition, the State
                  agency
                  agency claimed $10,926,099 (Federal share) for drug products not listed on the quarterly drug
                  tapes
                  tapes for which the State agency did not provide conclusive evidence that the drugs were eligible
                  for
                  for Medicaid
                        Medicaid coverage.
                                        coverage. The    The State
                                                                 State agency
                                                                       agency had inadequate
                                                                                    inadequate controls to ensure that all of
                                                                                                                           of its
                  outpatient drug expenditures complied with the Federal requirements desèribed            described in
                                                                                                                      in our
                                                                                                                         our objective.
                                                                                                                              objective.
Page 2 – Charlene Frizzera


We recommend that the State agency:

   •   refund $24,082,193 (Federal share) to the Federal Government for (1) claims for
       unsupported drug expenditures and (2) drug expenditures that were not eligible for
       Medicaid coverage;

   •   work with CMS to resolve $10,926,099 (Federal share) in expenditures for drug products
       that were not listed on the quarterly tapes and that may not have been eligible for
       Medicaid coverage; and

   •   strengthen and establish internal controls to ensure that claimed Medicaid drug
       expenditures comply with Federal requirements, specifically:

           o maintain documentation supporting all expenditures claimed on the CMS-64 in an
             easily retrievable and readily reviewable form,

           o retain funding codes to identify the Medicaid program and reimbursement rate for
             each claim when the claims are initially processed,

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly drug tapes,

           o prevent claims with prior authorizations from overriding drug termination dates,
             and

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes.

In its comments on our draft report, the State agency agreed to work with CMS to resolve the
issues regarding drugs not listed on the quarterly drug tapes and disagreed with our internal
control recommendations related to maintaining documentation and retaining funding codes.
However, the State agency did not explicitly address our remaining recommendations. The State
agency’s comments did not provide any new information to cause us to modify our
recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Lori A. Ahlstrand, Region Inspector General for Audit Services, at (415) 437-4360 or through
e-mail at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-07-00039.


Attachment
(~
,-:!-
,-1
           DEPARTMENT OF HEALTH & HUMAN SERVICES
("~ DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                                             Offce
                                                                                                             Officeof


                                                                                                             Region
                                                                                                                    ofInspector


                                                                                                             Region IX
                                                                                                             Offce
                                                                                                             Officeof
                                                                                                                       InspectorGeneral


                                                                                                                        IX
                                                                                                                      ofAudit
                                                                                                                                General



                                                                                                                          Audit Services
                                                                                                                                 SeNices
                                                                                                                     th
                                                                                                             90
                                                                                                             90 -- 7th
                                                                                                                    7 Street,
                                                                                                                         Street, Suite
                                                                                                                                 Suite 3-650
                                                                                                                                       3-650
                                                                                                             San
                                                                                                             San Francisco,
                                                                                                                    Francisco, CA 94103
                                                                                                                                      94103

                                                     APR 22 99 209

                                                     APR       2009

      Report Number:
      Report         A-09-07-00039
             Number: A-09-07-00039

             Maxwell-Jolly, Ph.D.
      David Maxwell-Jolly,  Ph.D.
      Director
      Deparment  ofHealth
      Departmentof  Health Care
                            Care Services
                                  Services
      1501 Capitol Avenue, MS 0000 .
      1501
           Box 997413
      P.O. Box 997413
      Sacramento, California 95899-7413
                              95899-7413

      Dear Dr. Maxwell-Jolly:

      Enclosed is the U.S. Department of Health
      Enclosed is the U.S. Department of                     Health      andServices
                                                                    and Human  Human        Office of 
 (HHS), Office of Inspector
                                                                                          Services
                                                                                     (HHS),

      General (OIG), final report entitled "Review           "Review of     of Medicaid
                                                                               Medicaid Outpatient Drug     Drug Expenditures in
      California
      California       for Years
                 for Fiscal Fiscal
                                 2004 Years
                                      and 2005."2004
                                                 We will and     a copy of 
We will forward a copy of this report to the
                                                         forward2005."                                                      the HHS
      action offcial
                 officialnoted
                            noted on  on the
                                          the following
                                                following page   pagefor for review
                                                                              reviewand and any
                                                                                              any action
                                                                                                     action deemed
                                                                                                            deemed necessary.
                                                                                                                    necessary.

      The HHSHHS action official offcial wilwillmakemakefinalfinaldetermination
                                                                     determinationasastotoactions
                                                                                           actionstaken
                                                                                                    taken on
                                                                                                           onall
                                                                                                              all matters
                                                                                                                  matters reported.
                                                                                                                           reported.
      We    request      that  you    respond       to  this  official     within
      We request that you respond to this offcial within 30 days from the date of 30 days from  the  date of this letter.
                                                                                                                  letter. Your
      response should present any comments or additional information that you believe may have a
      bearing on the final determination.

      Pursuant to the Freedom
                       Freedom ofof Information Act,S
                                                  Act, 5 U.S.c. §§ 552,
                                                                   552, OIG
                                                                        OIG reports generally are made
      available to the public to the extent that information in the report is not subject to exemptions in
      the Act. Accordingly, ths
          Act. Accordingly,   thisreport
                                   reportwill
                                         willbebeposted
                                                  postedononthe
                                                             theInternet
                                                                 Internet at
                                                                          at http://oig.hhs.gov.
                                                                             http://oig.hhs.gov.

      If you have any questions
                      questions or comments about this report, please do not hesitate to call me at
      (415)
      (415) 437-8360, or
            437-8360,  or contact
                          contact Jerry
                                  Jerry McGee,    Audit Manager,
                                        McGee, Audit     Manager, at
                                                                   at (323)
                                                                      (323) 261-7218
                                                                            261-7218 or
                                                                                     or through  e-mail at
                                                                                         through e-mail at
      Jerry.McGee@oig.hhs.gov.     Please refer
      Jerry.McGee(ßoig.hhs.gov. Please     referto
                                                 to report
                                                     report number
                                                            number A-09-07-00039
                                                                   A-09-07-00039 inin all
                                                                                      all correspondence.
                                                                                          correspondence.



                                                            It-
                                                                  Sincerely,
                                                                  Sincerely,

                                                                             ;:J.
                                                             It ;J.

                                                                  Lori A.
                                                                  Lori A. Ahlstrand
                                                                          Ahlstrand
                                                                  Regional Inspector
                                                                  Regional Inspector General
                                                                                      General
                                                                    for Audit
                                                                   for  Audit Services
                                                                              Services


      Enclosure
      Enclosure
Page 2 - David Maxwell-Jolly, Ph.D.


Direct Reply to HHS Action. Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF MEDICAID
     OUTPATIENT DRUG
 EXPENDITURES IN CALIFORNIA
     FOR FISCAL YEARS
       2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-09-07-00039
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the Medicaid program.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
California, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs, indicates a drug’s termination date, if applicable, and specifies
whether the Food and Drug Administration has determined the drug to be less than effective.
CMS guidance instructs the States to use the tape to verify coverage of the drugs for which they
claim reimbursement.

In California, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage (reimbursement
rate) for the majority of claimed Medicaid outpatient drug expenditures.

For fiscal years (FY) 2004 and 2005, the State agency claimed approximately $10.1 billion
($5.2 billion Federal share) in Medicaid outpatient drug expenditures. We reviewed this amount
for compliance with Federal requirements related to adequacy of support for the Federal share
claimed. Of the $10.1 billion, we reviewed approximately $9.3 billion ($4.8 billion Federal
share) for compliance with Federal requirements related to whether the drugs were terminated,
included on the CMS quarterly drug tapes, or less than effective. The remaining $756.1 million
represented certain Medicaid outpatient drug expenditures that we excluded from our review, as
described in the “Scope” section of this report.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements related to adequacy
of support for the Federal share claimed, and whether the drugs were terminated, included on the
CMS quarterly drug tapes, or less than effective.




                                                i
SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $10.1 billion
($5.2 billion Federal share) we reviewed for adequacy of support, $21,024,264 (Federal share)
represented expenditures for which the State agency’s accounting system did not provide
supporting claim documentation. The remainder of the Federal share claimed met Federal
requirements related to adequacy of support.

Of the $9.3 billion ($4.8 billion Federal share) we reviewed for compliance with Federal
requirements related to whether the drugs were terminated, included on the CMS quarterly drug
tapes, or less than effective:

   •   $3,057,929 (Federal share) represented expenditures for drug products that were not
       eligible for Medicaid coverage because they were terminated drugs for which the
       termination dates were listed on the CMS quarterly drug tapes before the drugs were
       dispensed and

   •   $10,926,099 (Federal share) represented expenditures for drug products not listed on the
       quarterly drug tapes for which the State agency did not provide conclusive evidence that
       the drugs were eligible for Medicaid coverage.

The remainder of the $9.3 billion reviewed met Federal requirements related to whether the
drugs were terminated, included on the CMS quarterly drug tapes, or less than effective.

In total, the State agency claimed $24,082,193 (Federal share) for unallowable drug expenditures
and $10,926,099 (Federal share) for drug expenditures that may have been unallowable for
Medicaid reimbursement.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with the Federal requirements described in our objective. Specifically, the State
agency did not maintain documentation supporting all expenditures claimed on the CMS-64 in
an easily retrievable and readily reviewable form, did not retain funding codes to identify the
Medicaid program and reimbursement rate for each claim when the claims were initially
processed, allowed claims with prior authorizations to override drug termination dates, and did
not verify whether drugs missing from the quarterly drug tapes were eligible for Medicaid
coverage.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $24,082,193 (Federal share) to the Federal Government for (1) claims for
       unsupported drug expenditures and (2) drug expenditures that were not eligible for
       Medicaid coverage;




                                                ii
   •   work with CMS to resolve $10,926,099 (Federal share) in expenditures for drug products
       that were not listed on the quarterly tapes and that may not have been eligible for
       Medicaid coverage; and

   •   strengthen and establish internal controls to ensure that claimed Medicaid drug
       expenditures comply with Federal requirements, specifically:

           o maintain documentation supporting all expenditures claimed on the CMS-64 in an
             easily retrievable and readily reviewable form,

           o retain funding codes to identify the Medicaid program and reimbursement rate for
             each claim when the claims are initially processed,

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly drug tapes,

           o prevent claims with prior authorizations from overriding drug termination dates,
             and

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report (included in their entirety as the Appendix), the State agency
did not specifically agree with our first recommendation to refund $24,082,193 (Federal share) to
the Federal Government. The State agency agreed with our second recommendation to work
with CMS to resolve $10,926,099 (Federal share) for drugs not listed on the quarterly drug tapes.
The State agency did not explicitly address all elements of our third recommendation.

The State agency’s comments did not provide any new information to cause us to modify our
recommendations.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                   Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicaid Program .............................................................................................1
              Medicaid Outpatient Prescription Drug Program .............................................1
              Reimbursement of Medicaid Expenditures .......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
               Objective ...........................................................................................................2
               Scope..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

          CLAIMS FOR UNSUPPORTED DRUG EXPENDITURES.......................................5

          CLAIMS FOR TERMINATED DRUGS ......................................................................6

          CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES................7

          INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
            POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES ....8

          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
            UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES ................................8

          RECOMMENDATIONS...............................................................................................8

          STATE AGENCY COMMENTS..................................................................................9

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................9

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including California, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes adjustments for
any errors, and sends the tape to the States. The tape indicates a drug’s termination date, 2 if
applicable, specifies whether the drug is less than effective, 3 and includes information that the
States use to claim rebates from drug manufacturers. CMS guidance instructs the States to use
the tape to verify coverage of the drugs for which they claim reimbursement and to calculate the
rebates that the manufacturers owe.




1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective
January 1, 1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not
participate in the program.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.


                                                          1
Reimbursement of Medicaid Expenditures

In California, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage (reimbursement
rate) for the majority of claimed Medicaid expenditures, including some outpatient drug
expenditures.

For Federal fiscal years (FY) 2004 and 2005, California’s reimbursement rate for Medicaid
expenditures varied from 50 percent to 90 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements related to adequacy
of support for the Federal share claimed and whether the drugs were terminated, included on the
CMS quarterly drug tapes, or less than effective.

Scope

To determine compliance with Federal requirements related to adequacy of support for the
Federal share claimed, we reviewed approximately $10.1 billion ($5.2 billion Federal share) in
Medicaid outpatient drug expenditures that the State agency claimed for FYs 2004 and 2005
(October 1, 2003, through September 30, 2005).

To determine compliance with Federal requirements related to whether the drugs were
terminated, included on the CMS quarterly drug tapes, or less than effective, we reviewed
approximately $9.3 billion ($4.8 billion Federal share). We excluded from our review the
following $756.1 million in expenditures claimed on the CMS-64s as outpatient drug
expenditures:

    •   approximately $468.9 million for medical procedures, durable medical equipment,
        medical supplies, enteral nutritional products, vaccines, over-the-counter vitamins and
        minerals, and nondrug products that were incorrectly reported as outpatient drug
        expenditures;

    •   approximately $212.2 million for products with Healthcare Common Procedure Coding
        System codes that were not national drug codes (NDC); and

    •   approximately $75 million for compound drugs for which the State agency did not have
        readily available supporting documentation that identified the individual drug
        components. 4 We will review compound drug expenditures in a separate audit.
4
 Pharmacists create compound drugs by combining two or more prescription or nonprescription drugs and
repackaging them into a new capsule or other dosage form.


                                                      2
We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.

We performed our audit from January 2007 through February 2008 and conducted fieldwork at
the State agency’s offices in Sacramento, California.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

We obtained from the State agency a detailed list of outpatient drug claims by quarter, which
included the following: (1) claim number, (2) product, (3) date provided, (4) amount paid, and
(5) funding code. 5 The information provided agreed with the paid claim amounts of weekly
disbursements recorded by the State controller. We judgmentally selected and obtained 30
sample claims (1 claim was voided) and compared these claims to the claims data provided by
the State agency.

We used the funding codes identified by the State agency to determine support for total Medicaid
drug expenditures claimed on the CMS-64s. To calculate the Federal share of total Medicaid
drug expenditures, we used the Federal reimbursement rates identified by the State agency. We
compared the amounts claimed on the CMS-64s to amounts that we determined from the
supporting documentation. We also reviewed summary expenditures and adjustments and
compared the summary amounts with the amounts reported on the CMS-64s.

We used the quarterly drug tapes for the period October 1, 1999, through June 30, 2006. We
determined whether the drugs for which the State agency claimed reimbursement were dispensed
after the termination or less-than-effective dates listed on the quarterly drug tape. In addition, we
determined whether CMS had included the termination dates on the quarterly drug tape in a
timely manner—that is, before terminated drugs could be dispensed. To account for reasonable
delays in processing data for terminated drugs, we used the first day of the quarter after the State
agency received the tape as the termination date if the termination dates were provided to the
State agency retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we provided a list of the
nonmatching drugs to the State agency for additional information to determine whether the drugs
were eligible for Medicaid coverage.

5
 The funding code identified the Medicaid or non-Medicaid program for each claim and the program’s
reimbursement rate. For example, during the audit period, funding code 061 represented State Children’s Health
Insurance Program claims with a Federal reimbursement rate of 65 percent, and funding code 100 represented
claims with the standard Federal reimbursement rate of 50 percent.


                                                        3
We calculated the Federal shares of the questioned expenditures for terminated drugs and the
set-aside expenditures for drugs not listed on the quarterly drug tapes using the lowest
reimbursement rate applicable for each quarter. We did not reduce the questioned drug
expenditures by any rebate credits that the State agency received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $10.1 billion
($5.2 billion Federal share) we reviewed for adequacy of support, $21,024,264 (Federal share)
represented expenditures for which the State agency’s accounting system did not provide
supporting claim documentation. The remainder of the Federal share claimed met Federal
requirements related to adequacy of support.

Of the $9.3 billion ($4.8 billion Federal share) we reviewed for compliance with Federal
requirements related to whether the drugs were terminated, included on the CMS quarterly drug
tapes, or less than effective:

   •   $3,057,929 (Federal share) represented expenditures for drug products that were not
       eligible for Medicaid coverage because they were terminated drugs for which the
       termination dates were listed on the CMS quarterly drug tapes before the drugs were
       dispensed and

   •   $10,926,099 (Federal share) represented expenditures for drug products not listed on the
       quarterly drug tapes for which the State agency did not provide conclusive evidence that
       the drugs were eligible for Medicaid coverage.

The remainder of the $9.3 billion reviewed met Federal requirements related to whether the
drugs were terminated, included on the CMS quarterly drug tapes, or less than effective.

In total, the State agency claimed $24,082,193 (Federal share) for unallowable drug expenditures
and $10,926,099 (Federal share) for drug expenditures that may not have been allowable for
Medicaid reimbursement.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with the Federal requirements described in our objective.




                                                4
CLAIMS FOR UNSUPPORTED DRUG EXPENDITURES

To receive reimbursement for Medicaid claims, States must maintain records identifying the
individual claims reported on the CMS-64. Pursuant to 42 CFR § 433.32(a), States are required
to “[m]aintain an accounting system and supporting fiscal records to assure that claims for
Federal funds are in accord with applicable Federal requirements . . . .” According to the CMS
“State Medicaid Manual,” section 2497.3, States “. . . must have a record-keeping system which
assures that documentation supporting a claim is regularly maintained, easily retrieved, and in
readily reviewable form.”

Furthermore, pursuant to 42 CFR § 430.30(c)(2), the CMS-64 is “. . . the State’s accounting of
actual recorded expenditures.” In addition, section 2500 A.1 of the “State Medicaid Manual”
states that amounts reported on the CMS-64 “. . . must be actual expenditures for which all
supporting documentation, in readily reviewable form, has been compiled and is available
immediately at the time the claim is filed.”

The State agency claimed approximately $5.2 billion (Federal share) in outpatient drug
expenditures for FYs 2004 and 2005. Of the $5.2 billion, the State agency did not provide
supporting claim documentation for $21,024,264 (Federal share) in drug expenditures claimed
on its CMS-64s. According to State agency documentation, the State agency’s accounting
system did not retain funding codes identifying the Medicaid program for each claim when the
claims were initially processed and reported on the CMS-64s. To provide the claims information
required for our audit, the State agency reconstructed the support for the claimed amounts. The
support included the following information: claim number, product, date provided, amount paid,
and funding code. 6 The process took 7 months to complete and resulted in these differences:

               Differences Between Amounts Reported on Form CMS-64s and
          Amounts Shown in Supporting Documentation for Fiscal Years 2004 and 2005

                                                        Total Medicaid
                                                         Expenditures                       Federal Share

Amounts Claimed on CMS-64s 7                            $10,095,209,447                     $5,198,163,492

Amounts Shown in Supporting
Documentation                                           $10,126,757,892                    $5,177,139,228 8

Difference: Amounts Claimed on
CMS-64s Less Amounts Shown in                             ($31,548,445)                       $21,024,264
Supporting Documentation
6
 We selected 30 individual claims and requested source documentation. The State agency furnished source
documentation for 29 claims and indicated that 1 claim was voided.
7
    Specifically, line 7 on CMS-64.9 Base and CMS-64.9 Waivers and line 8 on CMS-64.21 and CMS-64.21U.
8
 To calculate the Federal share of total Medicaid drug expenditures, we used the Federal reimbursement rates
identified by the State agency.


                                                         5
The State agency’s accounting system and records did not fully support its claims for Federal
reimbursement. Based on the records that the State agency provided to us, we could not
reconcile the Federal share of the supporting claims to the Federal share claimed on the
CMS-64s.

We informed the State agency of discrepancies between amounts claimed on the CMS-64s and
the supporting documentation provided. In May 2007, we informed the State agency of an
approximately $1.5 million (Federal share) difference for the quarter ended December 31, 2003.
We then informed the State agency in January 2008 of the approximately $21 million (Federal
share) that was unsupported for FYs 2004 and 2005. The State agency pointed out that (1) the
difference was less than 1 percent of the claimed expenditures and (2) the accounting system’s
inability to retain funding codes identifying the Medicaid program for each claim had come up in
prior State audits but had not been a concern for the State agency.

At the State agency’s request in February 2008, we provided an explanation of our methodology
for comparing claimed amounts on the CMS-64s to the supporting documentation. The State
agency’s written response indicated that our methodology did not account for changes to the
claims processing system, retroactive funding adjustments, and family planning claims identified
at the 90-percent reimbursement rate. However, the State agency’s response did not provide us
with any additional claim information that we had not already considered in our reconciliation.
The State agency could not provide supporting documentation for the approximately $21 million
(Federal share) difference.

CLAIMS FOR TERMINATED DRUGS

States are prohibited from claiming expenditures for drugs dispensed after the termination date.
Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “MUST . . . ASSURE that claims submitted by pharmacists are NOT for
drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in original.)

The CMS Medicaid drug rebate program release to State Medicaid directors, number 130, states
that “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with
the drug rebate program.” The quarterly drug tapes list the Medicaid-covered drugs’ termination
dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $5,992,396 ($3,057,929 Federal share) in
expenditures for drugs that, according to the State’s records, were dispensed after the termination
dates shown on the quarterly drug tapes. For example, the State agency paid for the drug
meclizine, which was dispensed on November 5, 2003. However, the drug’s termination date



                                                 6
was June 30, 2002, according to the tapes beginning with the quarter that ended December 31,
2001. The claimed expenditure was unallowable because it occurred after the drug’s termination
date, which was listed on the quarterly drug tape at the time the State agency made the
expenditure.

The State agency indicated that the CMS quarterly drug tapes do not provide timely information
on drug termination dates. The State agency commented that it “often receives notification from
a drug manufacturer years after the drug has been removed from the market and is obsolete, yet
there is nothing on the CMS [quarterly drug tape] denoting any change in the drug status.” The
State agency also indicated that its electronic formulary file allowed payments for some
terminated drugs. This file lists both Medicaid-covered and non-Medicaid-covered drugs and is
used to process all pharmacy claims.

CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States. 9 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program release to State
Medicaid directors, number 44, provides that: “. . . States must check the [quarterly drug tape] to
ensure the continued presence of a drug product . . . .”

The CMS “Medicaid Drug Rebate Operational Training Guide,” page S13, states: “If you have
paid for [a drug code] that is NOT on [the quarterly drug tape] you should have checked to make
sure it was correct. If you paid a pharmacy for utilization on an invalid [drug code], you may
have to . . . recoup your funds.”

For FYs 2004 and 2005, the State agency claimed $21,496,496 10 ($10,926,099 Federal share) in
expenditures for drug products that were not listed on the quarterly drug tapes. 11 According to
State agency documentation, the claims processing system did not identify which drugs in the
formulary file were eligible for Federal reimbursement. In addition, the State agency did not

9
 Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries.
10
  The State agency indicated that NDCs representing $8,469,990 ($4,278,370 Federal share) of the $21,496,496
related to generic drugs without rebate agreements.
11
  During our audit, the State agency made adjustments to the CMS-64s of $3,787,921 ($1,935,005 Federal share)
related to our audit period. The State agency said that it had determined that these expenditures were not covered by
Medicaid.


                                                           7
contact CMS to ensure that these drugs were eligible for Medicaid coverage under the Act. As a
result, the State agency did not provide conclusive evidence that these payments were allowable
Medicaid expenditures.

INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with the Federal requirements described in our objective. Specifically, the claims
processing system did not maintain documentation supporting all expenditures claimed on the
CMS-64 in an easily retrievable and readily reviewable form. In addition, the claims processing
system did not retain funding codes identifying the Medicaid program and reimbursement rate
for each claim when the claims were initially processed. Furthermore, the State agency
commented that the electronic formulary file within the claims processing system allowed claims
with prior authorizations to override drug termination dates. Finally, the State agency did not
verify whether drugs not listed on the quarterly drug tapes were covered under the Medicaid
program.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for unsupported drug expenditures and drugs
that were not eligible for Medicaid coverage because they were terminated. As a result, for
FYs 2004 and 2005, the State agency claimed unallowable expenditures totaling $24,082,193
(Federal share). The State agency also claimed Federal reimbursement for drug products that
may not have been allowable because they were not listed on the quarterly drug tapes. For these
expenditures, we set aside $10,926,099 (Federal share) for CMS adjudication because the State
agency did not provide conclusive evidence that these payments were allowable Medicaid
expenditures.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $24,082,193 (Federal share) to the Federal Government for (1) claims for
       unsupported drug expenditures and (2) drug expenditures that were not eligible for
       Medicaid coverage;

   •   work with CMS to resolve $10,926,099 (Federal share) in expenditures for drug products
       that were not listed on the quarterly tapes and that may not have been eligible for
       Medicaid coverage; and

   •   strengthen and establish internal controls to ensure that claimed Medicaid drug
       expenditures comply with Federal requirements, specifically:




                                               8
           o maintain documentation supporting all expenditures claimed on the CMS-64 in an
             easily retrievable and readily reviewable form,

           o retain funding codes to identify the Medicaid program and reimbursement rate for
             each claim when the claims are initially processed,

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly drug tapes,

           o prevent claims with prior authorizations from overriding drug termination dates,
             and

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS

In its comments on our draft report (included in their entirety as the Appendix), the State agency
did not specifically agree with our first recommendation to refund $24,082,193 (Federal share) to
the Federal Government. The State agency agreed with our second recommendation to work
with CMS to resolve $10,926,099 (Federal share) for drugs not listed on the quarterly drug tapes.

The State agency did not address all elements of our third recommendation. The State agency
disagreed that it did not maintain documentation supporting expenditures. It stated that its
Rebate Accounting Information System (RAIS) currently retains all drug claims dating back to
the beginning of the drug rebate program and contains funding indicators for all drug claims
when the claims were initially processed. It acknowledged that “there have been issues related to
terminated drugs and the need to improve the system.” The State agency commented that it
would set up a process to verify whether drugs listed in the formulary file, not the CMS quarterly
tapes, are covered under the Medicaid program by using information from the Food and Drug
Administration and manufacturers. The State agency also commented that it will communicate
formulary file discrepancies to CMS.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although we made multiple requests for the information that the State agency said was available
in the RAIS, the State agency did not provide the information to us during our audit. To our
knowledge, the RAIS was not the source of the claims data that the State agency provided to
support drug expenditures on the CMS-64, and State agency personnel did not identify the RAIS
as a possible source of data for resolving unsupported expenditures.

If the State agency shows that RAIS documentation related to our audit can be reconciled to the
Federal share claimed on the CMS-64, CMS can consider this information during the audit
resolution process. The State agency’s comments did not provide any new information to cause
us to modify our recommendations.




                                                9
APPENDIX
APPENDIX
 Page 1 of 6
APPENDIX
 Page 2 of 6
APPENDIX
 Page 3 of 6
APPENDIX
 Page 4 of 6
APPENDIX
 Page 5 of 6
APPENDIX
 Page 6 of 6
